No. 20-405

lin

ipupretue Court of tie Zintteb iptateo
CITY OF MIAMI GARDENS, FLORIDA,
Petitioner,

v.
WELLS FARGO & CO.,
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the
Eleventh Circuit

MOTION FOR LEAVE TO FILE AND AMICUS
CURIAE BRIEF FOR THE INTERNATIONAL
MUNICIPAL LAWYERS ASSOCIATION IN
SUPPORT OF PETITIONER
PAUL KOSTER
Counsel of Record
Emory Law School
Supreme Court Advocacy Program
1301 Clifton Road
Atlanta, GA 30322
(404) 727-3957
Paul.Koster@emory.edu

CHARLES W. THOMPSON, JR.
AMANDA KELLAR KARRAS
International Municipal
Lawyers Association
51 Monroe Street, Suite 404
Rockville, MD 20850
(202) 466-5424
cthompson@imla.org
akellar@imla.org
Counsel for Amicus Curiae

RECEIVED
NOV 18 201.0
OFFICE
iEr.
S PVIE tP

MOTION FOR LEAVE TO FILE AMICUS
CURIAE BRIEF FOR THE INTERNATIONAL
MUNICIPAL LAWYERS ASSOCIATION IN
SUPPORT OF PETITIONER
Pursuant to this Court's Rule 37, the
Lawyers
Municipal
International
Association ("IMLA") respectfully moves for leave of
the Court to file the attached brief as amicus curiae in
support of Petitioner.
All parties have consented to filing this brief;
however, IMLA's notice to counsel of record for
Respondent of its intent to file this brief was made
within 10 days of the briefs due date contrary to this
Court's Rule 37(2)(a).
As all parties have nevertheless consented to
the filing of this brief, IMLA respectfully requests that
this Court grant this Motion for Leave to File the
attached amicus curiae brief in support of Petitioner.
Respectfully Submitted,
CHARLES W. THOMPSON, JR.
AMANDA KELLAR KARRAS
International Municipal
Lawyers Association
51 Monroe Street, Suite 404
Rockville, MD 20850
(202) 466-5424
cthompson@imla.org
akellar@imla.org
Counsel for Amicus Curiae

PAUL KOSTER
Counsel of Record
Emory Law School
Supreme Court Advocacy Program
1301 Clifton Road
Atlanta, GA 30322
(404) 727-3957
Paul.Koster@emory.edu

ii
TABLE OF CONTENTS
TABLE OF CONTENTS
TABLE OF AUTHORITIES
INTERESTS OF AMICUS CURIAE
SUMMARY OF THE ARGUMENT
ARGUMENT
I.

.ii
iii
1
2
3

Local Governments Seeking Redress for Harms
to the Community Depend Upon Clear and
Predictable Standards for
Sua Sponte
Dismissal
3
Clarification of the Alabama Legislative
Black Caucus Rule Is Vital to Advancing
Civil Rights Claims and Effectuating Racial
Justice
4
Clarifying the Alabama Legislative Black
Caucus Rule Protects Local Governments'
Ability to Engage in Affirmative Litigation
in a Number of Contexts Involving Complex
Causation
6

II.

Granting Certiorari Will Clarify Evidentiary
Requirements for Standing and Resolve a
Conflict in the Circuit Courts
9

CONCLUSION

11

111

TABLE OF AUTHORITIES
CASES

Ala. Legislative Black Caucus v. Alabama,
575 U.S. 254 (2015)
Bank of Am. Corp. v. City of Miami,
137 S. Ct. 1296,
197 L. Ed. 2d 678 (2017)

10

4, 6-7

City of N. Royalton v. McKesson Corp.
(In re Nat'l Prescription Opiate Litig.),
No. 19-4097/4099, 2020 U.S. App. LEXIS
30514 (6th Cir. Sep. 24, 2020)

7

City of Portland v. Monsanto Co.,
No. 3:16-cv-01418-PK, 2017 U.S. Dist.
LEXIS 156370 (D. Or. Sep. 22, 2017)

8

Cty. of San Mateo v. Chevron Corp.,
960 F.3d 586 (9th Cir. 2020)

8

Curley v. Perry,
246 F.3d 1278 (10th Cir. 2001)

9

Gladstone Realtors v. Vill. of Bellwood,
441 U.S. 91 (1979)

5

Gonazalez- Gonzalez v. United States,
257 F.3d 31 (1st Cir. 2001)

9

iv
Mayor of Balt. v. BP P.L.C.,
952 F.3d 452 (4th Cir. 2020)

8

Razzoli v. Fed. Bureau of Prisons,
230 F.3d 371 (D.C. Cir. 2000)

9

Rhode Island v. Chevron Corp.,
393 F. Supp. 3d 142 (D.R.I. 2019)

8

STATUTES
42 U.S.C. ยง 3604(b)

4

42 U.S.C. ยง 3605(a)

4

OTHER MATERIALS
Adam A. Milani & Michael R. Smith,
Playing God: A Critical Look at
Sua Sponte Decisions by Appellate Courts,
69 Tenn. L. Rev. 245 (2002)

9

J. Economic Committee, 111th Cong.,
The 2008 Joint Economic Report

5

Kathleen C. Engel, Do Cities Have
Standing? Redressing the Externalities
of Predatory Lending, 38 Conn. L.
Rev. 355 (2006)

5

V

Monica Samoya, Portland, Port Join Settlement
With Monsanto Over PCBs Contamination,
OREGON PUBLIC BROADCASTING
(June 24, 2020), available at:
https ://www .opb . org/news/article/portlandport-j oin- settlement-with- monsanto- over-pcb scontamination/
8
Nikitra S. Bailey, Predatory Lending: The New
Face of Economic Injustice, A.B.A Human
Rights Mag., Summer 2005

5

Sarah D. Wolff, The State of Lending in America
& its Impact on U.S. Households, Center
for Responsible Lending (June 2015)
haps ://www.responsiblelending. org/state-oflending/reports/13- Cumulative-Impact.pdf ....5

1

INTERESTS OF AMICI CURIAE1
The International Municipal Lawyers
Association ("IMLA") is a non-profit, nonpartisan
professional organization consisting of more than
2,500 members. The membership is comprised of local
government entities, including cities, counties, and
subdivisions thereof, as represented by their chief
legal officers, state municipal leagues, and individual
attorneys.
IMLA serves as an international
clearinghouse of legal information and cooperation on
municipal legal matters.
Established in 1935, IMLA is the oldest and
largest association of attorneys representing United
States municipalities, counties, and special districts.
IMLA's mission is to advance the responsible
development of municipal law through education and
advocacy by providing the collective viewpoint of local
governments around the country on legal issues before
the United States Supreme Court, the United States
Courts of Appeals, and in state supreme and appellate
courts.
IMLA has a significant interest in promoting the
rights of local governments through clarification of
procedural rules affecting municipal litigants. Sua
sponte dismissal prior to discovery obscures the truth1 Pursuant to Sup. Ct. R. 37.6, amicus curiae state that no counsel
for a party has written this brief in whole or in part, and that no
person or entity, other than amicus curiae, its members, or its
counsel, has made a monetary contribution to the preparation or
submission of this brief. Written consent to the filing of this brief
has been obtained from counsel for Petitioners and Respondent.

2
seeking function of federal courts and inhibits local
governments' access to justice on behalf of themselves
and their communities.
SUMMARY OF THE ARGUMENT
This case presents an ideal vehicle to rectify the
Eleventh Circuit's continued refusal to follow this
Court's directive regarding sua sponte dismissal and
procedural fairness set forth in Alabama Legislative
Black Caucus, which has resulted in a split in the
circuits. Not only is clarity in the law important in the
area of procedural fairness, but the underlying issue
in this case, which the Eleventh Circuit seeks to avoid
adjudicating, implicates critical issues for local
governments, including issues of race discrimination
in housing and the resulting damage to communities
and local governments' very ability to bring
affirmative litigation.
Local governments have a fundamental right to
seek redress for harms to their communities in federal
courts. This type of affirmative litigation is essential
to safeguarding the social and financial wellbeing of
local governments. Unpredictable sua sponte
dismissal of municipal claims without the ability to
conduct discovery deprives local government and their
citizens of their right to seek recourse for widespread
harms from predatory lending. More broadly, the
Eleventh Circuit's practice threatens local
governments' abilities to bring affirmative litigation
in a host of other critically important cases. IMLA
respectfully requests that this Court grant Petitioner's
request for Certiorari, and reverse the decision of the

3
United States Court of Appeals for the Eleventh
Circuit.
ARGUMENT
I. LOCAL GOVERNMENTS SEEKING
REDRESS FOR HARMS TO THE
COMMUNITY DEPEND UPON CLEAR
AND PREDICTABLE STANDARDS
FOR SUA SPONTE DISMISSAL
The Eleventh Circuit ignored Alabama Legislative
Black Caucus v. Alabama by sua sponte dismissing
this case without adequate discovery, preventing the
City of Miami Gardens from seeking redress for harms
it suffered. This case presents an important issue
involving the conflict between a federal court's
discretionary power and the due process protections
guaranteed to local governments as aggrieved parties.
The petition for certiorari should be granted to bring
the Eleventh Circuit in line with the rest of the circuits
and allow this Court to clarify the proper application
for sua sponte dismissal set forth in Alabama
Legislative Black Caucus. Clarification on this
standard is particularly vital to local governments
which frequently litigate ongoing violations of the Fair
Housing Act as well as other areas of affirmative
litigation. In these cases, where litigants depend on
discovery to robustly articulate standing, parties
depend on clear and unambiguous standards to
safeguard themselves from sua sponte dismissal as
they seek to vindicate the rights of communities at
large through affirmative litigation.

4
a. CLARIFICATION OF THE
ALABAMA LEGISLATIVE BLACK
CAUCUS RULE IS VITAL TO
ADVANCING CIVIL RIGHTS
CLAIMS AND EFFECTUATING
RACIAL JUSTICE
The Fair Housing Act (FHA) forbids
"discriminat[ing] against any person in the terms,
conditions, or privileges of sale or rental of a dwelling,
or in the provision of services or facilities in connection
therewith, because of race." 42 U.S.C. ยง 3604(b). The
FHA also makes it unlawful for a business engaging
in real estate related transactions to "discriminate
against any person in making available such a
transaction, or in the terms or conditions of such a
transaction, because of race." 42 U.S.C. ยง 3605(a). The
City's complaint alleges that Wells Fargo Bank did
exactly what the FHA prohibits: it steered Black and
Hispanic borrowers into higher-cost loans than
similarly-situated White borrowers. Petition for Writ
of Certiorari at 5, City of Miami Gardens v. Wells
Fargo & Co.
While individuals can recover for their particular
injuries under the FHA, local governments maintain a
unique interest in addressing the lasting effects of
predatory lending on communities as a whole. For this
reason, local governments have a cause of action when
their communities are injured by the predatory
practices of financial institutions. Bank of Am. Corp.
v. City of Miami, 137 S. Ct. 1296, 1303, 197 L. Ed. 2d
678, 687 (2017). Lending institutions' impact on
communities is pervasive; through steering, lenders

5
can increase foreclosure rates which in turn can alter
the demographic composition of a constituency.
Gladstone Realtors v. Vill. of Bellwood, 441 U.S. 91,
114 (1979); Sarah D. Wolff, The State of Lending in
America & its Impact on U.S. Households, Center for
Responsible
Lending
(June
2015)
https://www.responsiblelending.org/state-oflending/reports/13- Cumulative-Impact.pdf.
As predatory lending manipulates communities, it
creates a cycle of devastation. According to the United
States Department of Housing and Urban
Development, low-income borrowers living in
predominantly African American neighborhoods are
twice as likely as low-income borrowers in
predominantly White neighborhoods to have subprime
loans. Nikitra S. Bailey, Predatory Lending: The New
Face of Economic Injustice, A.B.A Human Rights
Mag., Summer 2005.
Not only do the effects of subprime lending
disproportionally affect primarily African American
and Hispanic communities, the country as a whole lost
approximately $845 million dollars in property taxes.
J. Economic Committee, 111th Cong., The 2008 Joint
Economic Report 91. Local government budgets were
strained as an increase in empty buildings resulted in
an increased demand for police protection and victims
of predatory lending turned to cities for relief
programs. Kathleen C. Engel, Do Cities Have
Standing? Redressing the Externalities of Predatory
Lending, 38 Conn. L. Rev. 355, 361-62 (2006). As local
governments continued to lose tax revenue and spend
extra on social relief, education systems and

6
neighborhood appearance declined. These effects
impaired local governments' abilities to cultivate
stable and integrated neighborhoods, further
disproportionately harming minority communities.
The underlying issues in this case are of vital
importance for local governments to seek redress for
the significant harms caused by discriminatory
lending. This Court should intervene and grant
certiorari to prevent the Eleventh Circuit from
continuing to flout this Court's clear directive in
Alabama Legislative Black Caucus and to ensure local
governments can continue to pursue discriminatory
lending practice claims.
b. CLARIFYING THE ALABAMA
LEGISLATIVE BLACK CAUCUS
RULE PROTECTS LOCAL
GOVERNMENTS' ABILITY TO
ENGAGE IN AFFIRMATIVE
LITIGATION IN A NUMBER OF
CONTEXTS INVOLVING COMPLEX
CAUSATION
Affirmative litigation is the proper remedy for
the harms experienced by Miami Gardens. In a similar
case, Bank of Am. Corp. v. City of Miami, the City of
Miami brought suit against banks whose
discriminatory lending practices resulted in tangible
financial losses for the city. Bank of Am. Corp. v. City
of Miami, 137 S. Ct. 1296, 197 L.Ed.2d 678 (2017).
This Court acknowledged that Miami had standing
under the statute, writing "[w] e hold that the City's
claimed injuries fall within the zone of interests that

7
the FHA arguably protects. Hence, the City is an
`aggrieved person' able to bring suit under the
statute." Bank of Am. Corp. v. City of Miami, 137 S.
Ct. 1296, 197 L.Ed.2d 678, 685 (2017).
The injuries-in-fact sustained by the City of
Miami Gardens are quite similar to those sustained by
the City of Miami in Bank of Am. Corp. v. City of
Miami. 137 S. Ct. 1296, 1301, 197 L. Ed. 2d 678 (2017).
As noted in the petition, the similarity in these cases
and this Court's treatment of the standing issue likely
explains why the parties in this case did not see the
need to address standing. Sua sponte dismissal
deprives the city of its chance to obtain a remedy for
the injury it has sustained. Self-preservation requires
that local governments be allowed to recoup the
financial losses experienced at the hands of financial
institutions.
The FHA is not the only area in which local
governments are affirmatively litigating cases and the
Eleventh Circuit's decision in this case could have
ripple effects on a host of other litigation that local
governments are engaged in. For example, over 1,300
local governments have sued opioid manufacturers
and distributors, among others, as a result of damages
communities have faced from the flood of opioids into
their communities.
See City of N. Royalton v.
McKesson Corp. (In re Nat'l Prescription Opiate
Litig.), No. 19-4097/4099, 2020 U.S. App. LEXIS
30514, at *3 (6th Cir. Sep. 24, 2020) (detailing
allegations made by local governments in multidistrict opiate litigation). Local governments around
the country are also engaged in affirmative litigation

8
against oil and gas companies for their 'contributions
to climate change that they allege have caused
significant monetary damage to communities around
the country. See, e.g., Mayor of Balt. v. BP P.L.C., 952
F.3d 452, 457 (4th Cir. 2020) (certiorari granted); Cty.
of San Mateo v. Chevron Corp., 960 F.3d 586, 593 (9th
Cir. 2020); Rhode Island v. Chevron Corp., 393 F.
Supp. 3d 142, 146 (D.R.I. 2019). Additionally,
thousands of local governments have sued Monsanto,
claiming it is responsible for environmental
contamination from polychlorinated biphenyls, or
PCBs. City of Portland v. Monsanto Co., No. 3:16-cv01418-PK, 2017 U.S. Dist. LEXIS 156370, at *6 (D. Or.
Sep. 22, 2017); see also Monica Samoya, Portland, Port
Join Settlement With Monsanto Over PCBs
Contamination, OREGON PUBLIC BROADCASTING (June
24,
available
at:
2020),
https://www .opb .org/new s/article/portland-port-j oinsettlement- with- monsanto-over-pcbs -contamination/.
While these cases all present different issues
and are brought under a variety of legal theories, a
common theme is that they involve complex issues
that require discovery, which is often in the hands of
the defendants. Should the Eleventh Circuit's rule be
allowed to stand, local governments' ability to bring
affirmative litigation is at risk.
Because this case has serious implications for local
governments' ability to bring affirmative litigation in
complex areas of the law, IMLA urges this Court to
grant certiorari.

9
II.

GRANTING CERTIORARI WILL
CLARIFY EVIDENTIARY
REQUIREMENTS FOR STANDING
AND RESOLVE A CONFLICT IN THE
CIRCUIT COURTS

Although the Supreme Court has thus far avoided
placing direct limitations on appellate courts' ability
to take action sua sponte, the Eleventh Circuit's
actions prove that direction is needed in order to
uphold basic procedural fairness and due process, as
protected by the Fifth and Fourteenth Amendments.
When a court dismisses a case sua sponte it eliminates
a party's ability to be heard. Adam A. Milani &
Michael R. Smith, Playing God: A Critical Look at Sua
Sponte Decisions by Appellate Courts, 69 Ten. L. Rev.
245, 262-65 (2002). Historically, multiple circuits have
held that sua sponte dismissal is appropriate only
when it is indisputable that a plaintiff could not
prevail or that the complaint is clearly meritless.2
However, since its publication, there has been varying
interpretation of this Court's holding in Alabama
Legislative Black Caucus v. Alabama.
Gonazalez-Gonzalez v. United States, 257 F.3d 31, 36-17 (1st
Cir. 2001) ("if it is crystal clear that the plaintiff cannot prevail
and that amending the complaint would be futile, then a sua
sponte dismissal may stand."); Curley v. Perry, 246 F.3d 1278,
1281-82 (10th Cir. 2001) ("Dismissal . . . without affording the
plaintiff notice or an opportunity to amend is proper only 'when
it is 'patently obvious' that the plaintiff could not prevail on the
facts alleged, and allowing him an opportunity to amend his
complaint would be futile."'); Razzoli v. Fed. Bureau of Prisons,
230 F.3d 371, 377 (D.C. Cir. 2000) ("[A] sua sponte dismissal for
failure to state a claim without leave to amend is reversible
error unless 'the claimant cannot possibly win relief."').
2

10
Since this Court decided Alabama Legislative
Black Caucus, a conflict has arisen in the lower courts
that necessitates this Court's intervention. In the
case, this Court directed lower federal courts to
confirm Article III jurisdiction and ensure that the
plaintiff has standing, even without an attack on
standing from the opposing party. Alabama
Legislative Black Caucus, 575 U.S. at 270-71. This
instruction is proper and unsurprising. More forceful
in the Court's reasoning, the Court notes that in order
to protect "elementary principles of procedural
fairness," the district court in the case should have
given the plaintiff an opportunity to provide their
evidence of member residence in the state. Id.
The perceived conflicting directives resulting from
the case have created turmoil among the circuits. See
Petition at 28-30. The Eleventh Circuit itself has
repeatedly ignored the portion of the holding
protecting procedural fairness, and in multiple cases
has raised issues of standing sua sponte. See Petition
at 25-27. While it is important for a court to assure its
jurisdiction, doing so without an opportunity for
proper discovery blatantly ignores the rule set forth in
Alabama Legislative Black Caucus as well as the
fundamental fairness that is the basis of due process
underscoring that decision. On the other hand, outside
of the Eleventh Circuit, the central holding of
Alabama Legislative Black Caucus is the protection of
"elementary principles of procedural fairness." 575
U.S. at 270-71. Especially in cases where substantial
statistical data is required to prove elements of a
claim, denying a plaintiff the opportunity to engage in
discovery and subsequently dismissing the case is

11

inappropriate. This case presents an opportunity for
this Court to create a uniform standard for sua sponte
action to ensure that the hallmarks of due process and
procedural fairness are upheld.
CONCLUSION
For the foregoing reasons, amicus respectfully
asks this Court to grant the Petition for Writ of
Certiorari and reverse the decision of the Court of
Appeals for the Eleventh Circuit.
Respectfully Submitted,
PAUL KOSTER

Counsel of Record
Emory Law School
Supreme Court Advocacy Program
1301 Clifton Road
Atlanta, GA 30322
(404) 727-3957
Paul.Koster@emory.edu

CHARLES W. THOMPSON, JR.
AMANDA KELLAR KARRAS
International Municipal
Lawyers Association
51 Monroe Street, Suite 404
Rockville, MD 20850
(202) 466-5424
cthompson@imla.org
akellar@imla.org

Counsel for Amicus Curiae

